Date       : August 11, 2011
Reply to
Attn of    : Office of Inspector General (OIG)

Subject    : Management Letter No. 11-19, Review of                                  Subcontract Costs

To         : David S. Ferriero, Archivist of the United States (N)

The purpose of this management letter is to bring to your attention an
        contracting situation that has and continues to place NARA at risk for improper and
unsupported payments to a subcontractor. The issue involves two time-and-materials subcontracts,
totaling approximately $4 million, awarded by                                                 to
                                                                       , that provides computer
programming services.

We were asked by                  contracting officer (CO) to determine if    subcontract costs
submitted by                   and paid by NARA were accurate, supported, and allowable. The
CO and his Contracting Officer’s Representative reviewed         costs and had the following
concerns: (1) the                                 worked an excessive number of hours, including
weekends and holidays; (2) direct labor rates continually changed without any justification; and (3)
people were added to the subcontract without NARA approval.

We reviewed the supporting documentation initially provided by       to NARA, and found it was
inadequate to support payment of                       invoices for costs associated with
subcontract costs. Specifically, the documentation did not provide the basis to perform a contract
review in accordance with government audit policy and standards. For example, we found no
employee timesheets with which to validate the direct labor hours charged by      staff, and the staff
consistently charged an excessive amount of overtime hours on the subcontract without any
documentation that those hours were pre-approved as required by the terms of the subcontract.

In February 2011, we began attempting to secure additional, adequate documentation from         to
perform an appropriate review of       billed costs. We have sent multiple requests to     for such
documentation. To date,                  has failed to provide sufficient documentary evidence to
support the costs billed to                 and paid with NARA funds. On July 25, 2011, we made
a final request for    accounting records and documents needed to support invoices submitted for
payment from August 2008 to present. Responding to our last request,        provided a “thumb” drive
containing some documentation, but not the documentation requested, further hindering the review.



                                      National Archives and Records Administration
Documentation and information requested, but still not provided, include: (1) Cash Receipts
Journals, (2) Cash Disbursement Journals, (3) Payroll Ledgers, (4) Payroll Journals, (5) Bank
Statements, (6) Monthly                            submitted to                  of the hours and
costs recorded in the     Ledgers, (7) documentation supporting that the     staff members are U. S.
citizens, and (8) copies of any other subcontracts awarded to                          that involved
effort performed from 2008 to present. The requested documentation is customary, appropriate, and
necessary for performing a review of costs associated with time-and-materials type contracts.
has been provided with multiple requests and has had more than ample time to provide this basic
documentation. Without such documentation we are unable to perform an acceptable contract
review.

In the near future, we plan to issue two audit reports containing the results of our review of
subcontracts, one report dealing with incurred costs and the other with subcontract management. At
this point we are not able to validate      invoiced costs due to this lack of appropriate
documentation. Accordingly, it is our determination that NARA officials do not have adequate
support to validate payment for        costs. Please contact me if you have any questions or require
additional information concerning the issue discussed in this management letter.




Paul Brachfeld
Inspector General




                              National Archives and Records Administration
